   June 28, 2002




Information
Technology

Acquisition and Clinger-Cohen Act
Certification of the Defense
Integrated Military Human
Resources System
(D-2002-123)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AoA                   Analysis of Alternatives
BPR                   Business Process Reengineering
CCA                   Clinger-Cohen Act of 1996
CIO                   Chief Information Officer
COTS                  Commercial-off-the-shelf
DIMHRS                Defense Integrated Military Human Resources System
JPMO                  Joint Program Management Office
JR&IO                 Joint Requirements and Integration Office
OSD                   Office of the Secretary of Defense
             Office of the Inspector General of the Department of Defense
Report No. D-2002-123                                                                  June 28, 2002
      (Project No. D2000AS-0212.002)

               Acquisition and Clinger-Cohen Act Certification of the
               Defense Integrated Military Human Resources System

                                       Executive Summary

Who Should Read This Report and Why? Managers who plan, develop, or oversee
DoD automated information systems should be interested in this report because of the
special considerations involved in developing an automated information system based
on a commercial software product.

Background. This report is the third in a series evaluating certifications that DoD
automated information systems were being developed in accordance with the Clinger-
Cohen Act. During FYs 2000 and 2001, Congress required that the Chief Information
Officer of the DoD, before approving acquisition Milestones I, II, or III 1 of high-cost
information systems, evaluate the actions taken related to specific requirements of the
Clinger-Cohen Act. To help ensure effective oversight of DoD information technology
investments, Congress included Section 8121(b) in the DoD Appropriations Act for
FY 2000, which also required the Chief Information Officer of the DoD to inform
Congress of the certifications and to provide confirmation that DoD Components took
steps to meet specific requirements of the Act.

The Defense Integrated Military Human Resources System is a joint personnel and pay
system that is intended to replace about 80 legacy systems. As a major automated
information system, it is subject to the milestone decision approval authority of the
Chief Information Officer of the DoD and Section 8121 certification.
Results. Program management officials faced significant risks associated with the
Defense Integrated Military Human Resources System acquisition strategy, making the
upcoming Milestone B review and Clinger-Cohen Act certification particularly
challenging. As of February 2002, it was uncertain whether program officials could
execute the acquisition within acceptable cost, schedule, and performance boundaries.
The Milestone B review needs to validate that alternative acquisition approaches have
been thoroughly considered. Additionally, establishing time limits to resolve potential


1
    With the issuance of DoD Instruction 5000.2, “Operation of the Defense Acquisition System” on
    October 23, 2000, the milestone names changed from I, II, and III to A, B, and C.
issues during system development would reduce schedule and performance risks. As of
June 2002, DIMHRS program officials have deferred Milestone B to September 2002.
See finding A for detailed recommendations.

The Chief Information Officer of the DoD had sufficient basis to certify, in June 2000,
that the Defense Integrated Military Human Resources System was being developed in
accordance with the Clinger-Cohen Act with respect to Milestone 1. However,
substantial work remained to meet the requirements of the Clinger-Cohen Act with
respect to Milestone B. See finding B for a discussion of the work to be completed.

Management Comments and Audit Response. The Chief Information Officer of the
DoD generally concurred with the audit results and stated that his office would continue
to consider the recommended alternatives. The Under Secretary of Defense for
Personnel and Readiness (the Under Secretary) concurred with the basic premise that
the value of the Defense Integrated Military Human Resources System be demonstrated
before commencing development but did not agree with the discussion or
recommendations related to the system justification, improvements to the existing
military personnel systems, and further exploration of alternatives. The Navy Program
Executive Officer for Information Technology concurred with the Under Secretary
comments but did not comment directly. The Joint Staff, the Air Force, and the
Defense Accounting and Finance Agency provided unsolicited comments. See the
Findings for a discussion of management comments. The complete text of written
comments is in the Management Comments section. Chief Information Officer of the
DoD and Navy Program Executive Officer comments on the recommendations about
the further exploration of alternatives were not clear; therefore, we ask for additional
comments. Although the Under Secretary’s comments about the recommendation to
amend the process for resolving issues were generally responsive, we ask that the
Under Secretary provide an expected implementation date for amending the process.
We request that management provide comments on the final report by July 31, 2002.




                                           ii
Table of Contents

Executive Summary                                                           i

Introduction
     Background                                                             1
     Objectives                                                             3

Findings
     A. Defense Integrated Military Human Resources System Acquisition
         Risks                                                              4
     B. Certification of the Defense Integrated Military Human Resources
         System at Milestone I                                             15

Appendixes
     A. Scope and Methodology
         Scope and Methodology                                             22
         Prior Coverage                                                    23
     B. Clinger-Cohen Act of 1996                                          24
     C. Defense Integrated Military Human Resources System Background      25
     D. Exit Criteria for Milestone B                                      27
     E. Summary of Management Comments and Audit Response                  28
     F. Report Distribution                                                31

Management Comments
     Under Secretary of Defense for Personnel and Readiness                33
     Assistant Secretary of Defense (Command, Control, Communications,
        and Intelligence)                                                  42
     Department of the Navy                                                46
     Department of the Air Force                                           47
     Joint Staff                                                           48
Background
           In July 1999, the House Committee on Appropriations expressed disappointment
           in the level of oversight of DoD information technology system acquisitions.
           Specifically, House of Representatives Report 106-244, “Report of the
           Committee on Appropriations,” July 20, 1999, stated that DoD information
           technology projects often overrun budgets, slip schedules, evade data
           standardization and interoperability requirements, and shortchange user needs.
           To address those concerns, Congress developed provisions to prohibit any DoD
           major automated information system from receiving Milestone2 I, II, or III
           approval during FY 2000 without written certification from the DoD Chief
           Information Officer (CIO) that the system was being developed in accordance
           with the Clinger-Cohen Act of 19963 (CCA). The Assistant Secretary of
           Defense (Command, Control, Communications, and Intelligence), designated as
           the DoD CIO, is responsible for overseeing all DoD information technology
           systems and implementing several aspects of the CCA.

           Section 8121(b), “Certifications as to Compliance with Clinger-Cohen Act.”
           On October 25, 1999, Congress enacted Public Law 106-79, which included
           Section 8121(b), “Certifications as to Compliance with Clinger-Cohen Act.”
           Public Law 106-79, Section 8121(b) [Section 8121(b)] required that:
                        (1) During the fiscal year 2000, a major automated information
                        system may not receive Milestone I approval, Milestone II approval,
                        or Milestone III approval within the Department of Defense until the
                        Chief Information Officer certifies, with respect to that milestone, that
                        the system is being developed in accordance with the Clinger-Cohen
                        Act of 1996 (40 U.S.C 1401 et seq.). The Chief Information Officer
                        may require additional certifications, as appropriate, with respect to
                        any such system.

                        (2) The Chief Information Officer shall provide the congressional
                        defense committees timely notification of certifications under
                        paragraph (1). Each such notification shall include, at a minimum,
                        the funding baseline and milestone schedule for each system covered
                        by such a certification and confirmation that the following steps have
                        been taken with respect to the system:

                            A) Business process reengineering.

                            B) An analysis of alternatives.


2
    A milestone is a decision point that separates major phases of an acquisition program. DoD Regulation
    5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and Major
    Automated Information Systems (MAIS) Acquisition Programs,” June 2001 requires the Milestone
    Decision Authority to provide approval at each milestone before an acquisition program can progress to
    the next phase of development.
3
    A description of the Clinger-Cohen Act of 1996 is provided in Appendix B.

                                                       1
              C) An economic analysis that includes a calculation of the return
                 on investment.

              D) Performance measures.

              E) An information assurance strategy consistent with DoD
                 Command,       Control,    Communications,   Computers,
                 Intelligence, Surveillance, and Reconnaissance (C4ISR)
                 Architecture Framework.

Section 8121(b) requirements were only applicable during FY 2000. However,
Congress extended the certification requirements through FY 2001 by enacting
Section 8102(b), “Certifications as to Compliance with the Clinger-Cohen Act,”
of the DoD Appropriations Act for FY 2001. For FY 2002, Congress did not
extend the CIO certification requirements.

Need for a DoD Personnel and Pay System. The Defense Integrated Military
Human Resources System (DIMHRS) is a DoD military personnel and pay
management system being developed to correct deficiencies that were
highlighted during Operations Desert Shield and Desert Storm in 1990 and
1991. For example, joint commanders lacked accurate information needed to
perform operational assessments, Reserve and National Guard members
received delayed or inaccurate pay and benefits, and the Services had difficulty
demonstrating potential exposures to environmental hazards such as chemical
and biological weapons use. The Under Secretary of Defense for Personnel and
Readiness approved a mission need statement for a single, fully integrated, all-
Service, all-component, military personnel and pay management system on
February 24, 1998.

DIMHRS System Description. DIMHRS is a joint personnel and pay system
that is intended to replace about 80 legacy personnel systems and provide
personnel and pay services for all DoD military personnel. DIMHRS will
consist of core business processes common to all Services and will be
supplemented by Service-specific needs. The core system will collect, store,
transmit, process, and report personnel and pay data for all DoD active duty,
Reserve, National Guard, and retired military personnel. Service-specific
functionality will be provided by DIMHRS for any pay and personnel
management processes that were supported by the Services legacy systems, but
will not be included in the core system. The DIMHRS Joint Program
Management Office (JPMO) proposed the use of a commercial-off-the-shelf
(COTS) solution to meet both core and Service-specific requirements. In
March 2001, the Naval Sea Systems Command awarded a one-year COTS
Enterprise License to PeopleSoft to determine PeopleSoft’s level of fit with the
DIMHRS requirements and the DoD business processes. See Appendix C for
additional background information on DIMHRS.

DIMHRS Oversight and Management. DIMHRS is a major automated
information system under the milestone decision authority of the DoD CIO.
The JPMO, located at the Space and Naval Warfare Information Technology
Center in New Orleans, Louisiana, performed acquisition program management
responsibilities. The Navy was the executive agent for DIMHRS. The Under

                                       2
           Secretary of Defense for Personnel and Readiness was the DIMHRS functional
           proponent. Within the Office of the Under Secretary of Defense for Personnel
           and Readiness, the Joint Requirements and Integration Office (JR&IO) was
           responsible for business process reengineering and functional requirements.
           DIMHRS’ estimated life-cycle costs ranged from $1.4 billion to $2.5 billion.
           The JPMO and JR&IO spent over $100 million on the DIMHRS program
           through FY 2001.

           Since Milestone I approval on October 27, 2000, the DIMHRS program was in
           the Concept and Technology Development acquisition phase.4 The JPMO
           expected to hold a Milestone B review in December 2001 until the DIMHRS
           Executive Steering Committee approved a new accelerated migration strategy on
           July 20, 2001. The new strategy focused on accelerating the development and
           fielding of an integrated personnel and pay functionality to the Army and Navy.
           Although actions to officially re-baseline the DIMHRS program were in
           progress as of February 2002, the JPMO estimated that a Milestone B review
           would be delayed until July 2002.

Objectives
           The primary audit objective was to determine whether DoD oversight processes
           and procedures provided the DoD CIO with a sufficient basis to certify at
           Milestone I that DIMHRS was being developed in accordance with CCA. We
           also reviewed the program acquisition strategy and evaluated related acquisition
           management risks. In a subsequent report, we will assess the progress of DoD
           to implement CCA, and we will review related management controls. See
           Appendix A for a description of the audit scope and methodology and prior
           coverage related to the DIMHRS program.

DIMHRS Acquisition Program Risks and Certification
           Although the DoD CIO certification that DIMHRS was being developed in
           accordance with CCA at Milestone I was warranted, the DIMHRS program
           officials faced significant risks associated with program acquisition strategy. A
           discussion of those acquisition management risks is provided in finding A. The
           DoD CIO certification for Milestone I is discussed in detail in finding B.




4
    On October 23, 2000, the Office of the Secretary of Defense updated DoD Instruction 5000.2,
    “Operation of the Defense Acquisition System.” Under the old guidance, the DIMHRS program was in
    the Program Definition and Risk Reduction phase, and the next milestone would have been Milestone
    II; however, under the new guidance, DIMHRS is in the Concept and Technology Development phase,
    and the next milestone is Milestone B, which is the decision point for entry into the System
    Development and Demonstration phase.


                                                   3
           A. Defense Integrated Military Human
              Resources System Acquisition Risks
           The DIMHRS program faced significant risks associated with the
           program acquisition strategy. Those program risks existed because the
           amount of the COTS software modification was unknown and planned
           modifications were significantly less than indicated by prior DoD
           experience with human resource system acquisitions. Because several
           decisions typically made by Milestone I were deferred to the Concept
           and Technology Development phase, the DIMHRS planned Milestone B
           program schedule was very aggressive. Although the DIMHRS program
           manager and officials initiated various risk reduction initiatives, as of
           February 2002, it was uncertain whether DoD could execute the
           DIMHRS acquisition within acceptable cost, schedule, and performance
           boundaries while meeting user expectations. To meet the full intent of
           the Clinger-Cohen Act at Milestone B, program officials need to address
           these risks and uncertainties.

Planned Modifications and DoD Experience with
  Commercially Available Software Applications
    Federal and DoD acquisition policy emphasizes a streamlined approach that
    closely resembles the commercial marketplace and encourages the acquisition of
    commercial items. Accordingly, DoD requires that DoD Components initially
    consider the use of the COTS software products when acquiring automated
    systems. The primary advantage of using the COTS software products is cost
    savings. Because development and maintenance costs are spread among a broad
    base of the COTS users, DoD costs for COTS could be less than the costs of
    software developed and maintained exclusively for DoD. However, with the
    modification of a COTS software product, monetary advantages diminish. As
    reflected in “Commercial Item Acquisition: Considerations and Lessons
    Learned,” June 26, 2000, DoD experience with COTS software products has
    shown that functional requirements are seldom fully satisfied by a COTS
    software product without some degree, and often a substantial amount, of
    modification.

    In February 2001, the DIMHRS program manager anticipated that the COTS
    software would require about 10 to 20 percent modification to obtain the
    minimum functionality required by DoD users. However, prior DoD
    experience with COTS-based human resource systems indicated that it may be
    unreasonable to expect to meet 80 to 90 percent of the required functionality
    with an “off the shelf” application. DIMHRS was not the first COTS-based
    military personnel system developed by DoD. The Air Force and Navy each
    spent considerable effort and funds to modernize their military personnel
    systems in recent years, and both systems were based on a human resources
    COTS software product. However, because “off the shelf” software products
    did not totally satisfy the Services functional requirements, both the Air Force
    and Navy made extensive modifications to achieve the required functionality.
                                         4
    For the Air Force, the initial “fit” of the COTS package only met about
    25 percent of specified requirements, while the COTS software product required
    significant modification to achieve the remaining 75 percent. The Navy
    modified its COTS software product to achieve about 90 percent of the required
    functionality. Further, the COTS software for the Defense Civilian Personnel
    Data System, the new DoD standardized civilian personnel management system,
    initially provided only about 65 percent of the required functionality.

    In May 2001, the DIMHRS program officials took steps to mitigate the risk
    posed by planned COTS software modification by initiating a “fit gap” analysis.
    The “fit gap” analysis, when complete, should be sufficient to mitigate the risk
    of unknown and potentially extensive software modifications. Therefore, we
    did not make any recommendations associated with this risk. The “fit gap”
    analysis is discussed in more detail in the “Management Risk Reduction
    Initiatives” section of this report.

Schedule and Affordability of the DIMHRS Program
    Under the traditional DoD acquisition approach of designing and building an
    information system to meet specified requirements, sufficient detail would have
    been identified by Milestone I to select a preferred alternative and to establish
    cost, schedule, and performance thresholds and objectives to meet specified
    functional requirements. The DIMHRS program did not follow this traditional
    approach. Although the DIMHRS program obtained Milestone I approval in
    October 2000, when the DoD investment in DIMHRS approached $100 million,
    many aspects of the DIMHRS program were not well-defined, including
    program cost estimates. In July 1999, the JPMO developed the preliminary
    DIMHRS cost analysis for Milestone I review considerations. However, neither
    the JPMO nor the JR&IO had developed a detailed and well-documented cost
    analysis for DIMHRS because the specific capabilities and limitations of the
    COTS software had not been thoroughly evaluated and defined. As discussed
    later in this finding under the “Management Risk Reduction Initiatives”
    heading, a detailed analysis of the COTS package was initiated shortly after the
    COTS product was acquired in March 2001. The JPMO appropriately did not
    acquire the COTS product before March 2001 because DoD acquisition
    guidance discourages major acquisition expenditures prior to Milestone I. Once
    the COTS capabilities are defined and established, cost tradeoffs can be
    evaluated and cost analyses developed; however, there was considerable risk
    that the Concept and Technology Development phase activities could not be
    completed as scheduled and that the proposed DIMHRS program may not be the
    most cost effective or affordable solution.

    Schedule Risk. The DIMHRS schedule for accomplishing the Concept and
    Technology Development phase activities was very aggressive. The Milestone I
    Acquisition Program Baseline, approved in May 2000, scheduled the end of the
    Concept and Technology Development phase to occur between September and
    December 2001; however, program management officials subsequently delayed
    Milestone B until July 2002. As of June 2002, program officials again delayed
    Milestone B until September 2002.



                                        5
One of the documents required by the DoD CIO for the Milestone B review is
the DIMHRS economic analysis. Extensive life-cycle costing effort was
required to produce the economic analysis. Specifically, the DIMHRS program
manager needed to finalize the Cost Analysis Requirements Description, which
provides the programmatic assumptions for satisfying the functional
requirements. The program manager also needed to finalize the DIMHRS
life-cycle cost estimate. Further, the JPMO had to obtain an independent
estimate of the DIMHRS life-cycle costs. After the DIMHRS life-cycle cost
estimate and the independent life-cycle cost estimates were reconciled, the
JPMO would have to incorporate the reconciled life-cycle costs, along with
estimated life-cycle benefits, into the DIMHRS economic analysis. The JPMO
would then have to coordinate the economic analysis among interested DoD
Components and relevant Office of Secretary of Defense (OSD) oversight
organizations, such as the Office of Program Analysis and Evaluation.
Two main factors made the completion and coordination of a thorough
DIMHRS economic analysis by July 2002 doubtful. First, several cost-related
documents, such as the component cost analysis and the economic analysis,
needed to be completed, coordinated, and approved. Secondly, because the
detailed evaluation of the COTS capabilities will not be completed until
July 2002, the reliability of the DIMHRS cost estimates prepared prior to
July 2002 may be questionable. Accordingly, the completion of all required
costing efforts by July 2002 was optimistic. The DIMHRS schedule did not
appear to allow sufficient time for a thorough COTS software evaluation and
incorporation of the knowledge gained into a complete and valid DIMHRS
economic analysis for Milestone B. Also, because the Preliminary Economic
Analysis, dated July 7, 1999, indicated a relatively low return on investment, it
was uncertain whether DIMHRS could be economically justified.

Affordability of DIMHRS. Because DoD Components have expended
substantial resources on improved military personnel management automated
systems in recent years, it is unclear whether the ultimate cost of DIMHRS will
be worthwhile. In addition to the potential substantial investment required to
develop DIMHRS, the Navy and Air Force have continued to invest heavily in
their legacy military personnel systems. Additionally, the Joint Personnel Asset
Visibility system, an interim system designed to provide the Combatant
Commanders with better visibility over their personnel assets, has been
developed but not yet fielded due to funding problems.

         Potential DIMHRS Costs. As of February 2002, the DIMHRS
program officials had not completed detailed costing of DIMHRS. According to
preliminary cost estimates, the overall DIMHRS program may be very
expensive and may not be economically advantageous to DoD. The DIMHRS
software development and deployment cost estimates, made in December 1999
by an independent source, ranged from $380 million to $1.2 billion depending
on key variables, such as the length of development and deployment efforts and
the initial “fit” of the COTS software to meet functional requirements. The
independent DIMHRS life-cycle cost estimates ranged from $1.3 to $3.6 billion
in consideration of the same variables. In comparison, the JPMO and the
JR&IO estimation of life-cycle costs, as shown in the July 1999 DIMHRS
Preliminary Economic Analysis, totaled between $1.4 to $2.5 billion.
                                    6
        Recent Legacy System Enhancements. Although DIMHRS was
expected to provide an integrated pay and personnel management capability, the
majority of costs to develop DIMHRS were expected to involve the development
of a standardized military personnel system, which would replace about 80
military Service personnel systems. However, the Services have continued to
modernize their legacy personnel systems. During the past few years, the
Services, specifically the Navy and the Air Force, have invested heavily in their
individual legacy personnel management systems or developed new systems.
The Navy expects to spend more than $230 million through FY 2002 on the
development of the Navy Standard Integrated Personnel System. Although the
amount of Air Force investment in its Military Modernization project is
uncertain, because it was funded within a budget line for modernization of their
legacy personnel systems, the Air Force investment was substantial. Both
systems used modern technology and were based on a COTS human resources
application. Also, both systems required significant COTS software
modifications to provide the functionality required by its users.

        Personnel Asset Visibility. One major justification for the DoD
investment in DIMHRS was to meet the joint forces commander’s operational
need for personnel asset visibility. The need for increased personnel visibility
by joint forces commanders became evident in the early 1990s during
Operations Desert Shield and Desert Storm. The Services legacy systems did
not enable the commanders of joint operations sufficient visibility of personnel
assets to perform operational assessments and planning.

Because DIMHRS implementation was not expected to occur for several years,
DoD developed an interim system called Joint Personnel Asset Visibility to
provide enhanced personnel asset visibility to the Combatant Commanders. The
system was scheduled for implementation in early FY 2002 but implementation
was indefinitely delayed due to a funding shortfall of $2.4 million.

Other Alternatives. The JPMO and the JR&IO did not thoroughly consider the
costs and benefits associated with meeting critical military personnel
management needs without replacing the legacy systems. In 1999, potential
alternatives for DIMHRS were independently assessed. One alternative
identified was the establishment of a common database that would be supplied
data by the Service legacy systems. However, the assessors did not develop
related costs and benefits for this alternative. The planned DIMHRS program
may provide a greater level of benefit than presently provided by the legacy
Service systems; however, the legacy systems seem to meet the operational
assessment needs of joint military commanders. Further, the costs and benefits
of alternative approaches to a common system have not received detailed
examination. Although a common military personnel management system has
several advantages, the DIMHRS program had yet to quantify the level of
investment required to develop a standardized military personnel management
system. Accordingly, the DIMHRS program officials need to objectively
estimate the expected costs and benefits of basing DIMHRS on a common
database that is supplied data by the Services legacy systems. Further, before
authorizing the development of a common, standardized military personnel
management system, the DoD CIO needs to consider the related costs and
benefits associated with both alternatives to ensure that the DoD investment in


                                    7
    DIMHRS is optimal and that critical user needs are met. Fortunately,
    Milestone B, scheduled to occur in September 2002, offers the opportunity to
    make these determinations.

Meeting User Needs
    Senior DoD officials planned to limit the amount of COTS modifications and,
    therefore, to limit the costs for the DIMHRS software modifications; however,
    those same actions may increase the risk that the DIMHRS implementation
    would not be fully successful. Adoption of the COTS inherent personnel
    management processes will diminish the need for software modifications but,
    while defining and developing core DIMHRS capabilities, program officials
    need to also adequately consider how well those processes will meet user
    requirements. To be fully successful, DIMHRS needs to meet user functional
    requirements to accomplish user missions. If functional requirements are not
    met by DIMHRS, past experience shows that users may be reluctant to retire
    legacy systems.

    If DoD envisions that DIMHRS will become the single DoD military personnel
    management system, then OSD officials must ensure that DIMHRS will
    adequately support the Services functional communities. DoD implementation of
    the Standard Procurement System illustrated the reluctance of functional users to
    accept a system that does not adequately support mission accomplishment. DoD
    development of the Standard Procurement System had many similarities to
    DIMHRS. As DIMHRS was intended to support the military personnel
    management function, the Standard Procurement System was envisioned to be
    the single, standard automated system used by DoD for the procurement
    function. DoD based the development of the Standard Procurement System on a
    COTS software product that was being developed and fielded incrementally.

    The Office of the Inspector General, DoD, periodically reported on the
    acquisition and development of the Standard Procurement System. Inspector
    General, DoD, Report No. 96-219, “Allegations to the Defense Hotline
    Concerning the Standard Procurement System,” September 5, 1996, stated that
    the acquisition strategy increased the risks that the program would not meet the
    overall objective of a standardized procurement system that would fully meet
    user needs. Inspector General, DoD, Report No. D-2001-075, “Standard
    Procurement System Use and User Satisfaction,” March 13, 2001, identified
    several issues related to user satisfaction, including the conclusion that most
    users of the Standard Procurement System preferred an alternative procurement
    system. The alternative system preferred was most often the legacy system that
    the Standard Procurement System would replace. Additionally, Inspector
    General, DoD, Report No. 99-166, “Initial Implementation of the Standard
    Procurement System,” May 26, 1999, stated that the Standard Procurement
    System was scheduled to replace 12 major procurement legacy systems during
    the period of FY 1998 through FY 2000. Partially because the Standard
    Procurement System did not meet user needs, none of the legacy systems were
    retired at the time of the audit in May 1999. As of August 2001, only 4 of the
    12 legacy systems were retired.

                                        8
    In recognition of potential disagreements during DIMHRS development, JR&IO
    developed an issue resolution process. Because the established issue resolution
    process should help mitigate the risk that DIMHRS may not meet user needs,
    we made no related recommendations except with respect to time limitations for
    resolving issues.

Management Risk Reduction Initiatives
    The DIMHRS program officials, recognizing substantial risks to the program,
    took steps to lessen potential impacts on the development of DIMHRS. In
    May 2001, the JPMO and JR&IO initiated a detailed analysis of the PeopleSoft
    COTS software package to better define its specific capabilities and ability to
    meet functional requirements. Additionally, the JR&IO developed a process to
    resolve issues that may emerge during the development of DIMHRS.

    Analysis of COTS Capabilities. Shortly after acquiring the PeopleSoft COTS
    software product in March 2001, the JPMO and JR&IO began an extensive
    analysis of PeopleSoft to better define the gap between functional requirements
    and the ability of PeopleSoft to adequately meet those requirements. The initial
    “fit gap” analysis was completed in December 2001 and the DIMHRS JPMO
    expects to complete an in-depth analysis in July 2002. The DIMHRS program
    manager stated that initial “fit gap” analysis results were encouraging and that it
    may be possible to use the PeopleSoft product with relatively few modifications.
    Completion of the “fit gap” analysis should provide a much clearer picture of
    PeopleSoft’s inherent capabilities, the amount of required software
    modifications, and the investment ultimately needed for the completion of
    DIMHRS.

    To minimize costs, the DIMHRS program officials intend to adopt the personnel
    management business processes inherent in the COTS software to the maximum
    extent. In their efforts to minimize costs, the DIMHRS program officials need
    to remember that the Navy and Air Force, while developing their modern
    military personnel management systems, each reached the conclusion that
    significant COTS software modification was worth the investment and was
    necessary to meet their user requirements. As previously discussed, a focus
    only on potential costs, rather than on potential costs and benefits, increases the
    risk that users may not readily accept and use DIMHRS if it does not satisfy
    their operational needs.

    Issue Resolution Process. The JR&IO, working with the Joint Integration
    Group, developed and coordinated an issue resolution process to provide a
    means to minimize the associated risk and potential cost that would accompany
    COTS software modifications. Issues identified during the COTS software “fit
    gap” analysis and subsequent JR&IO recommendations were documented in an
    issue resolution log. Additionally, all issues and recommendations were fully
    coordinated with the Joint Integration Group. Issues not resolved by the Joint
    Integration Group will be elevated to an Executive Steering Committee, which
    includes senior military management representatives. The Under Secretary of
    Defense for Personnel and Readiness decides upon issues that cannot be
    resolved by the Executive Steering Committee. The issue resolution process


                                         9
    facilitates the review of issues identified and ensures that the views of the
    Services are considered; however, the issue resolution process did not have
    established time limitations or restrictions for resolution of open issues. For
    example, the resolution process did not specify how long an issue could remain
    at the Joint Integration Group before it was elevated to the next decision level.
    As a result, only 11 of the 50 issues opened during July 2001 were closed within
    four months, while 18 of the 50 issues took between 4 and 6 months to close.
    Additionally, as of January 14, 2002, 21 of those 50 issues were still open, but
    had not gone to the Executive Steering Committee for review.

    Until the DIMHRS program officials better understand the specific capabilities
    of the selected COTS software product, functional requirements would probably
    continue to be defined at a macro-level. However, as the COTS software
    capabilities are defined, the JPMO and JR&IO managers will be better able to
    perform cost tradeoff analyses and begin to specifically define the DIMHRS
    core functionality. Consequently, the Director, JR&IO, may receive many
    proposals for the COTS software modifications later in the acquisition.
    Therefore, the DIMHRS program officials need to modify the issue resolution
    process to establish time limitations to ensure the resolution of issues that could
    impact user acceptance of DIMHRS.

Conclusion
    The development of a standard system for use by all of the Services is difficult,
    even under the best circumstances. However, the number of unknowns that
    existed at Milestone I and that remain to be identified, quantified, and defined
    during the Concept and Technology Development phase presented a formidable
    challenge for the DIMHRS program officials. Further, the factors that needed
    to be defined and quantified were highly interrelated and interdependent. Those
    factors included the capabilities and limitations of the selected COTS software
    product, the “fit” of the COTS product to functional requirements, any software
    modification to meet user requirements, and efforts to control associated costs.
    In turn, each of those factors represented risk to the DIMHRS program that
    could substantially impact the cost, schedule, and performance of the program.
    Further, the potential impacts of recent Navy and Air Force investments in their
    legacy systems have not been fully analyzed or recognized within the DIMHRS
    program.

    Milestone B presents the Chief Information Officer of the DoD and the
    DIMHRS program’s sponsors and users with the opportunity to thoroughly
    evaluate the future course of this major information technology investment. If
    necessary, it should be rescheduled again to allow sufficient time to carry out
    and document the requisite analyses needed for sound decision making.

Management Comments on the Finding and Audit Response
    Management Comments. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) (the Assistant Secretary) partially

                                        10
concurred with the draft finding. The DoD CIO agreed that the DIMHRS
planned Milestone B schedule may be overly optimistic, but indicated that the
decisions made by Milestone 1 were in full compliance with acquisition
requirements. Accordingly, the issue of questionable program affordability
should not be attributed to a lack of well-defined acquisition program
parameters.

The Under Secretary of Defense for Personnel and Readiness (the Under
Secretary) concurred in the draft report’s basic premise that DIMHRS
demonstrates its value before entering the design and development phase, but
stated that the report contained errors concerning the discussions of DIMHRS
justification, legacy personnel system improvements, and further exploration of
viable alternatives.
The Navy Program Executive Officer for Information Technology (the Navy
Program Executive Officer) concurred with the Under Secretary comments.

Although not required to comment, the Director for Manpower and Personnel,
Joint Chiefs of Staff (the Joint Staff), stated that we did not accurately quote
statements made by his staff and reached an inappropriate conclusion regarding
the need for DIMHRS by the Unified Commands.

Although not required to comment, the Air Force Deputy Chief of Staff
(Personnel) (the Air Force) concurred, particularly with analysis of a “common
database” alternative.

The full text of comments made by the Assistant Secretary, the Under Secretary,
the Joint Staff, the Air Force, and the Navy Program Executive Officer are in
the Management Comments section of this report.

Although not required to comment, the Director for Business Integration,
Defense Finance and Accounting Service, provided oral comments and generally
concurred with the finding and audit results.

Audit Response. Regarding the Assistant Secretary’s comments, we did not
intend to indicate that the Milestone I decisions were inappropriate or were not
in compliance with acquisition requirements. Nor did we intend to indicate that
the existence of unresolved questions at Milestone I was inappropriate. Our
intent was to illustrate the related challenges involved to oversee the
development of a COTS-based automated information system.

We do not agree with all of the comments provided by the Under Secretary and
the Joint Staff. Their specific positions and associated audit responses are
summarized in Appendix E. The full text of written comments received is in the
Management Comments section of this report.




                                   11
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Navy Program Executive Officer for
    Information Technology provide an analysis of the cost effectiveness of the
    Defense Integrated Military Human Resources System to include an analysis
    of other program alternatives to the Milestone Decision Authority before a
    Milestone B decision. Other program alternatives include those that may
    not provide all of the benefits or meet all stated requirements of the
    currently planned system, but that may involve significantly less cost and
    risk, such as the alternative of a common database fed by the Services
    legacy systems.

    Management Comments. The Navy Program Executive Officer concurred
    with comments provided by the Under Secretary, but did not directly provide
    comments on the draft report. Because the recommendation is addressed to the
    Navy Program Executive Officer, we request that the Navy Program Executive
    Officer provide comments in response to the final report.

    Although not required to comment, the Under Secretary partially concurred, but
    stated that all viable program alternatives that will meet established functional
    requirements have already been determined. Therefore, it is not appropriate for
    the Navy Program Executive Officer to perform additional analyses.
    Additionally, the Analysis of Alternatives Task Force considered many
    alternatives, including a common database. However, a common database
    approach was not considered viable because it would not resolve any of the
    deficiencies described in high-level requirements documents.

    Audit Response. In regard to the Under Secretary’s comments, we disagree
    that all viable alternatives were evaluated and documented in the AoA. We also
    disagree that additional analysis is not needed. During the Milestone I review,
    the DIMHRS Program was allowed to proceed into phase I with the agreement
    that program alternatives would be further defined and evaluated prior to
    Milestone B. During the audit, program officials explained that two viable
    alternatives existed and would be examined prior to Milestone B: the buy
    alternative and the build alternative. However, program officials did not
    provide any documentation to show that the build alternative had been
    thoroughly evaluated. Further, the buy alternative only considered one business
    approach, which was the use of a human resources COTS product with very
    minimal COTS modifications. As discussed in this finding, we see many risks
    associated with this approach. Although the current DIMHRS approach may
    meet all stated requirements, it has not been clearly demonstrated that it will
    provide DoD with the best return on investment or adequately lessen attendant
    risks. Additionally, the Navy and Air Force have substantially invested in
    modernizing their legacy systems. Accordingly, a prudent business decision
    would be to consider other alternatives prior to Milestone B.




                                       12
A.2. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence), before authorizing, at
Milestone B, the development of a common, standardized military personnel
management system, determine whether the proposed investment for the
Defense Integrated Military Human Resources System program provides
the best business solution when compared to alternatives solutions for
meeting DoD military personnel management and pay needs.

Management Comments. The Assistant Secretary concurred and stated that
the organization will continue to consider the recommended alternatives as
DIMHRS progresses toward implementation.

Although not required to comment, the Under Secretary concurred with
comment, stating that the role of the functional community is to identify feasible
and non-feasible alternatives and that the role of the Navy Program Executive
Officer is to document the business case for the selected alternative. The Under
Secretary also indicated that the Assistant Secretary, in the role of the Milestone
Decision Authority, should limit his efforts to ensuring that all requirements
bearing on a Milestone decision have been considered and that deliberations of a
broader scope, including those in the recommendation, are not appropriate.
Further, the Under Secretary stated that the draft report acknowledged that the
selected alternative and the associated business case were responsive to guidance
and only required additional time to obtain the detailed cost information
necessary for evaluation.

Audit Response. Although the Assistant Secretary concurred, his comments
were not clearly responsive to the intent of the recommendation. As stated in
the Audit Response to Recommendation A.1., we did not see any evidence that
program officials explored any specific alternative other than the use of an
integrated pay and human resources COTS product. The Assistant Secretary
should ensure that the DIMHRS program officials identify, evaluate, and
provide a complete cost benefit analysis and return-on-investment calculation for
the viable build and buy alternatives. Before granting Milestone B approval, the
Assistant Secretary should also require that the related costs, benefits, and
return on investment be analyzed for other potential alternatives. Accordingly,
we request that the Assistant Secretary provide further comments that clarify his
position regarding the consideration of business cases for alternative program
approaches.

We agree with the Under Secretary’s comments describing the usual roles of the
functional community, the Navy Program Executive Officer, and the Milestone
Decision Authority during acquisitions of major automated information systems.
However, the Assistant Secretary has multiple roles and responsibilities and acts
both as the Milestone Decision Authority for acquisitions of major automated
information systems and as the DoD CIO. As the DoD CIO, the Assistant
Secretary has overall responsibility for maximizing the value and assessing and
managing the risks of DoD information technology acquisitions. Accordingly,
the Assistant Secretary’s role is appropriately described in the recommendation.




                                    13
A.3. We recommend that the Director of the Joint Requirements and
Integration Office, in coordination with the Offices of the Secretaries of the
Army, Navy, and Air Force, amend the issue resolution process to provide
timeframes for elevating the resolving issues that could impact user
acceptance of the Defense Integrated Military Human Resources System.
To be of maximum benefit, the issue resolution process should be modified
before the Milestone B review.

Management Comments. The Under Secretary concurred with comment,
stating that the issue resolution process documents will be updated to require
that all critical path issues be resolved within 2 weeks or elevated to the next
level. Additionally, non-critical path issues will be given a 6-month time frame
for resolution. Should non-critical path issues threaten progress, they will then
become critical and will fall under the 2-week rule.
Audit Response. The Under Secretary’s comments were responsive; however,
we request that the Under Secretary provide an expected implementation date
for the updated issue resolution process.




                                    14
            B. Certification of the Defense
               Integrated Military Human
               Resources System
            The DoD CIO had sufficient basis to certify that DIMHRS was being
            developed in accordance with the CCA at Milestone I. The certification
            was credible because the JPMO and the JR&IO took appropriate steps
            prior to Milestone I in four of the five certification areas outlined in
            Public Law 106-79, Section 8121(b). Specifically, those areas were
            business process reengineering, analysis of alternatives, economic
            analysis, and information assurance. Further, during the Milestone I
            review process, the DoD CIO provided effective oversight of DIMHRS.
            However, the JR&IO did not make sufficient progress towards
            developing performance measures, which was the fifth area specified in
            Section 8121(b). Additionally, because DIMHRS program officials were
            not authorized to acquire a COTS software product before Milestone I,
            the DIMHRS program officials were unable to evaluate and define the
            capabilities that the COTS product could provide. As a result, the JPMO
            and the JR&IO needed to complete additional work planned for the four
            certification areas and demonstrate progress in establishing functional
            performance measures in the fifth certification area for the DIMHRS
            program to meet the Section 8121(b) certification requirements at
            Milestone B.

Certification Process
     For certification at Milestone I, the JPMO prepared the DIMHRS program
     compliance report that summarized the requirements of Section 8121(b) and
     provided background information on the program. The report also outlined the
     actions taken by the JPMO and the JR&IO with respect to business process
     reengineering (BPR), analysis of alternatives (AoA), economic analysis,
     information assurance, and performance measures. After reviewing the
     compliance report, a review team, represented by various staff offices within
     OSD, prepared a draft certification report for the signature of the DoD CIO.
     On April 17, 2000, the review team briefed the Deputy CIO on the draft
     DIMHRS certification report.

     The Deputy CIO tentatively approved the certification during the briefing, thus
     authorizing the preparation of the official certification report, which described
     steps taken and acknowledged steps not taken in the five Section 8121(b)
     certification areas. After the briefing, the Deputy CIO coordinated the
     certification report with, and obtained endorsement from, numerous DoD and
     OSD staff offices. On June 28, 2000, the DoD CIO certified to Congress that
     the DIMHRS program was being developed in accordance with CCA as
     described in the certification report .



                                         15
Section 8121(b) Certification Areas
     Certification of the DIMHRS program was warranted because the JPMO and the
     JR&IO took appropriate steps prior to Milestone I in four of the five
     Section 8121(b) interest areas. The JPMO and the JR&IO performed substantial
     and sufficient work in the areas of BPR, AoA, and economic analysis,
     especially considering the DIMHRS acquisition strategy. Although CCA
     encourages an organization to perform BPR, AoA, and an economic analysis
     early in the acquisition process, DoD acquisition guidance discourages major
     acquisition expenditures prior to Milestone I. Therefore, DIMHRS program
     officials were not authorized to obtain the PeopleSoft COTS product until
     several months after the Milestone I approval. As a result, the DIMHRS
     program officials did not have detailed knowledge of the capabilities and
     limitations of the COTS software product needed to complete the BPR, AoA,
     and economic analysis. The JPMO also performed substantial and sufficient
     work in the area of information assurance at Milestone I, but the JR&IO had not
     demonstrated sufficient progress towards establishing functional performance
     measures for DIMHRS by Milestone I.

     Business Process Reengineering. As of Milestone I in October 2000, the
     JR&IO took reasonable steps to reengineer DoD military personnel management
     business processes and had a reasonable approach for ensuring that the selected
     COTS software product fit the JR&IO “as-is” and “to-be” models. However,
     because DoD acquisition rules do not permit selection of a COTS product prior
     to Milestone I, the DIMHRS officials did not acquire the COTS software
     product until March 2001 and were unable to complete detailed BPR analyses
     before Milestone I. The JR&IO made extensive efforts to reengineer business
     processes for military personnel before and during the COTS selection process.
     Specifically, the JR&IO prepared high-level “as-is” and “to-be” models prior to
     the selection of the PeopleSoft COTS software product, but the JR&IO was
     unable to complete detailed BPR because the capabilities of the COTS software
     product, which may have significant impact on the “to-be” processes, had not
     been evaluated and defined.

     From FY 1998 through FY 2000, the JR&IO spent about $11 million on BPR.
     The JR&IO high-level “as-is” model documented the capabilities of the legacy
     systems, and the “to-be” model described the department-level requirements for
     military personnel and pay. A focus group representing the Services, Defense
     agencies, Joint Staff, and OSD proponents incorporated the process modeling
     results into the source selection criteria to help ensure the selection of a COTS
     software product that best met projected DoD requirements. In March 2001,
     the Naval Sea Systems Command, on behalf of the JPMO, awarded a one-year
     COTS Enterprise License to PeopleSoft for test and evaluation purposes. The
     JPMO and the JR&IO planned to perform a detailed analysis of the PeopleSoft
     COTS software product before March 2002 to determine how well it fits the
     JR&IO “to-be” processes and to evaluate whether DoD should adopt the
     inherent software processes. Overall, the JPMO and the JR&IO made sufficient
     progress in the area of BPR for the DIMHRS program.


                                        16
Analysis of Alternatives and Economic Analysis. An AoA and economic
analysis are directly related. Effective use of an AoA, in conjunction with an
economic analysis, provides program managers a viable basis for evaluating
alternatives. Once the field of possible solutions is narrowed to a few realistic
alternatives, then the principles of economic analysis and its tools of cost/benefit
analysis and return-on-investment are applied to offer the most promising
alternative solution.

The JR&IO prepared an AoA and the JPMO prepared the Preliminary Economic
Analysis prior to Milestone I. However, both documents were incomplete and
needed to be updated before Milestone B because the specific capabilities of the
COTS software product had not been evaluated or defined. The amount of
modifications that will be required to adapt the COTS software product for DoD
use will depend on the inherent capabilities of that product. Further, the
ultimate cost of DIMHRS will depend on the amount and type of modifications
that are made. Consequently, the JR&IO and the JPMO will not have the
detailed cost information needed to complete the AoA and economic analysis
until the JPMO completes the evaluation and definition of the capabilities of the
PeopleSoft product.

                Analysis of Alternatives. The AoA prepared for Milestone I,
dated December 9, 1999, did not consider all feasible alternatives and did not
include a cost benefit analyses for each alternative considered. The Milestone I
AoA did not consider four technical alternatives discussed in a November 1999
Institute for Defense Analyses draft report, “An Independent Review of the
Defense Integrated Military Human Resources System (DIMHRS)”. Those four
technical alternatives included:

       •   a common database structure plus service-unique functional software;

       •   a common database structure plus largely common functional
           software obtained by modifying the system(s) of one of the Services;

       •   a common database structure plus largely common functional
           software obtained by customizing an integrated COTS human
           resources product (known as the “buy” alternative); and

       •   a common database structure plus largely common functional
           software obtained by Government integrating a mix of COTS,
           Government-off-the-shelf, and a newly developed product (known as
           the “build” alternative).

During the Milestone I review process, the DoD CIO established exit criteria
that required the JR&IO to update the AoA prior to Milestone B approval.
According to the Milestone I acquisition decision memorandum of October 27,
2000, the updated AoA should document the rationale for eliminating
alternatives not fully analyzed in the Milestone I AoA, evaluate the remaining
alternatives, provide a complete cost benefit analysis and a return-on-investment
calculation for the most viable alternatives, and recommend a preferred
alternative. Since Milestone I, the JR&IO prepared a revised AoA, dated
March 14, 2001. Although still in draft form, the revised AoA provided more


                                     17
information than the Milestone I AoA. The revised AoA described all the
alternatives that were considered (including the four technical alternatives
evaluated by the Institute for Defense Analyses), documented the rationale for
eliminating alternatives without a comprehensive cost benefit analysis, and
provided a tradeoff analysis on the two viable alternatives, “buy” and “build.”
However, the revised AoA lacked the detailed cost benefit analysis needed to
choose between the two alternatives because the JPMO and the JR&IO had not
thoroughly explored and defined the capabilities and limitations of the
PeopleSoft COTS software product.

        Economic Analysis. The Preliminary Economic Analysis, dated
July 7, 1999, and prepared for Milestone I, was incomplete because the JPMO
and the JR&IO had not officially selected the preferred alternative and had not
completed development of legacy systems cost data, migration strategy
schedules, and the Cost Analysis Requirements Description. Additionally, the
Preliminary Economic Analysis was not supported by an independent
component cost analysis and the life-cycle cost estimate included costs for only
42 of the 80 legacy systems that DIMHRS would replace. According to the
Preliminary Economic Analysis, DIMHRS life-cycle costs ranged from
$1.4 billion to $2.5 billion and life-cycle benefits ranged from $2.1 billion to
$2.9 billion. The Preliminary Economic Analysis acknowledged that it needed
to be updated as the legacy cost data collection was completed and as the
program became better defined. Specifically, the cost and benefit estimates
needed refinement before the Milestone B decision. However, the Preliminary
Economic Analysis concluded that the initial positive return on investment
projections were encouraging, that additional qualitative benefits would be
realized, and that further program definition and risk reduction were justified.

Because weaknesses related to economic analysis existed when the DIMHRS
program received Milestone I approval, the DoD CIO issued exit criteria to
ensure that the DIMHRS program would meet the intent of the CCA economic
analysis requirements before Milestone B. Specifically, the Milestone I
acquisition decision memorandum required the development of an economic
analysis and a component cost analysis for the preferred DIMHRS alternative
before Milestone B approval. According to the acquisition decision
memorandum, the economic analysis should capture the total cost of ownership
to include infrastructure and operating costs for the Military Services.
However, as of February 2002, the JPMO was not able to provide more
definitive estimated costs for DIMHRS because the capabilities and limitations
of the PeopleSoft COTS software product still had not been thoroughly explored
and defined.

Information Assurance. The JPMO developed a reasonable plan and approach
for the DIMHRS system security. Specifically, the JPMO made substantial
progress in developing the System Security Authorization Agreement prior to
Milestone I. Additionally, the DoD CIO took action to ensure that the
information assurance posture of DIMHRS progressed even further prior to
Milestone B. During the Milestone I review, the DoD CIO required that the
DIMHRS program officials appoint a designated approving authority, update the
System Security Authorization Agreement, and brief an overall security plan to
the Infrastructure and Information Assurance Directorate, Office of the Assistant
                                   18
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     prior to Milestone B, in July 2002. The DoD CIO also required program
     officials to update the Test and Evaluation Master Plan and submit the results of
     the designated approving authority review. The JPMO appointed a designated
     approving authority in June 2001; however, the JPMO had not completed the
     System Security Authorization Agreement and had not prepared the security
     plan. The DoD CIO needs to ensure that those requirements are met prior to
     Milestone B.

     Performance Measures. At Milestone I, in October 2000, the JR&IO had not
     made sufficient progress towards establishing functional performance measures.
     Additionally, the DoD CIO and other OSD oversight officials did not identify
     any performance measure weaknesses or deficiencies during the Milestone I
     review. Consequently, the DoD CIO did not establish any performance
     measure-related exit criteria to ensure that the JR&IO developed functional
     performance measures. Further, the compliance and certification reports
     prepared for DIMHRS did not specifically identify the functional performance
     measures for the system. Instead, those reports listed examples of performance-
     related information that was included in various other program documents, such
     as the operational requirements document. Additionally, the JR&IO provided
     no supporting documentation to the DoD CIO to document the development of
     functional performance measures.

     Functional performance measures help measure the gains and benefits realized
     by the development of new information technology systems such as DIMHRS.
     To measure those gains, the JR&IO must first define what to measure. The
     established performance measures must be standard throughout the DoD. It is a
     complicated process because each Military Service already uses different
     processes and information systems to accomplish personnel needs. After
     deciding upon standard performance measures, the JR&IO must baseline the
     current processes used by the legacy personnel systems in functional quantitative
     terms. DIMHRS will replace about 80 legacy personnel systems. Finally, the
     JR&IO needs to begin planning how to measure the performance of the new
     information system, DIMHRS, in functional quantitative terms; however,
     JR&IO had not identified what to measure, had not baselined the legacy
     systems, and had not begun to develop functional performance measures to
     quantitatively evaluate the performance gains provided by DIMHRS.

Effective Oversight
     The DoD CIO and other OSD oversight officials met the intent of CCA by
     providing effective oversight of the DIMHRS acquisition. The DoD CIO and
     OSD staff offices ensured that the DIMHRS program developed the appropriate
     program documentation at Milestone I, identified weaknesses in those program
     documents, and established exit criteria to ensure correction of those weaknesses
     before the Milestone B decision.

     During the Milestone I review process, the DoD CIO and other OSD staff
     offices identified weaknesses related to AoA, economic analysis, information
     assurance, and several other areas. To correct those deficiencies, the DoD CIO


                                        19
    included exit criteria in the October 2000 Milestone I acquisition decision
    memorandum that required the DIMHRS program officials to update the AoA,
    economic analysis, and System Security Authorization Agreement; conduct a
    component cost analysis; appoint a designated approving authority; and brief an
    overall security plan to the Infrastructure and Information Assurance
    Directorate. See Appendix D for a complete list of the exit criteria required to
    be completed before Milestone B.

Conclusion
    Milestone B for DIMHRS will require careful preparation and decision-making.
    DIMHRS program officials were not authorized to acquire a COTS software
    product before Milestone I. Therefore, the DIMHRS program officials were
    unable to evaluate and define the capabilities that the COTS product could
    provide. As a result, many items that generally would have been completed by
    Milestone I, such as BPR, AoA, and economic analysis, were deferred until the
    next phase of the acquisition. In addition, the JPMO and the JR&IO needed to
    make further progress in the areas of information assurance and performance
    measures during the Concept and Technology Development phase. The DoD
    CIO established appropriate exit criteria related to the AoA, the economic
    analysis, and information assurance that must be met before Milestone B. In
    addition, the JPMO and the JR&IO must complete the remaining work in the
    five Section 8121(b) certification areas. Implementation of Recommendation B
    and the recommendations in finding A will help facilitate DIHMRS compliance
    with the CCA at Milestone B.

Management Comments on the Finding and Audit Response
    Management Comments. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) concurred and stated that the office
    would ensure that the DIMHRS would comply with CCA requirements prior to
    Milestone B.

    The Under Secretary of Defense for Personnel and Readiness (the Under
    Secretary) concurred and also commented on several areas of the report
    background and finding discussion that required correction or clarification. As
    to the system description provided in the background, the Under Secretary asked
    that we clarify that only the functionality of the replaced systems will be
    included in DIMHRS and that we describe actions to re-baseline the DIMHRS
    program. Regarding the finding discussion, the Under Secretary indicated that
    we attributed acquisition roles and responsibilities to the wrong offices, that it is
    not reasonable to expect “definitive” cost estimates in the AoA at the current
    stage the DIMHRS development, and described progress to establish functional
    performance measures for DIHMRS.

    Audit Response. We agree with the Under Secretary’s comments concerning
    background and acquisition roles, and we revised this final report accordingly.
    However, we do not agree with management comments about the definitiveness

                                         20
    of DIMHRS cost estimates and the effort required to establish effective
    functional performance measures. While we agree that actual DIMHRS costs
    cannot be identified before implementation, we reiterate that more defined and
    refined DIMHRS cost estimates will become available upon completion of the
    evaluation of the PeopleSoft software package.

Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Director, Joint Requirements and Integration
    Office develop a schedule and action plan to establish functional
    performance measures for the Defense Integrated Military Human
    Resources System program by Milestone B.

    Management Comments. The Under Secretary concurred and stated that the
    Joint Requirements and Integration Office had developed a draft Performance
    Measurement Plan that was being coordinated. The Plan will meet the
    requirements of the Clinger-Cohen Act and the Government Performance and
    Results Act and provide essential measures of performance in terms of accuracy
    and timeliness. Further, adoption of existing measures for pay and personnel
    operations provides a baseline and the ability to do trend analyses.

    Audit Response. Management comments meet the intent of the
    recommendation and no further comments are required. We commend the Joint
    Requirements and Integration Office for quickly developing a draft performance
    measurement plan. However, we urge caution in the adoption of measures for
    existing personnel management processes as a baseline against which the
    functional gains of DIMHRS will be determined. Because existing functional
    processes are so divergent across DoD Components, a comparison between
    existing processes and the future “standard” processes of DIMHRS may not
    provide useful information. The use of benchmarking may provide a better
    baseline for assessing future functional improvements obtained through
    DIMHRS.




                                       21
Appendix A. Scope and Methodology

Scope and Methodology
    We evaluated the basis for the DIMHRS Milestone I certification made to
    Congress in response to Section 8121(b) and the effectiveness of oversight
    provided by the DoD CIO and other OSD staff offices with oversight
    responsibility. During our review of the Milestone I Clinger-Cohen Act
    certification, we became aware of substantial program management risks. As a
    result, we also examined acquisition management issues including the DIMHRS
    COTS modification expectations, cost and schedule estimates, and plans for
    meeting user needs.

    Specifically, we reviewed the certification process including the compliance
    report prepared by the JPMO, briefing charts used to brief the Deputy CIO on
    the DIMHRS certification process, and the certification report submitted to
    Congress. We examined the documentation supporting the DoD CIO
    confirmation that steps were taken with respect to BPR, AoA, economic
    analysis, performance measures, and information assurance covering February
    1998 to January 2002. We also reviewed key acquisition documentation
    prepared for the Milestone I review on October 27, 2000, and the acquisition
    decision memorandum issued for that milestone review. Finally, we discussed
    various aspects of the DIMHRS certification process and acquisition
    management issues with various DoD acquisition and functional officials,
    including the staff of the JPMO, staff of the Director, JR&IO, staff of the Office
    of the DoD CIO, and the staff of the Director, Program Analysis and
    Evaluation.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Information Management and Technology high-risk area.

    Audit Dates and Standards. We performed this audit from January 2001
    through March 2002 in accordance with generally accepted government auditing
    standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We received technical assistance from a
    computer engineer in the Technical Assessment Division, Audit Followup and
    Technical Support Directorate. The computer engineer reviewed the DIMHRS
    program documentation on information security and testing. Specifically, the
    computer engineer reviewed the Test and Evaluation Master Plan; Command,
    Control, Communications, Computers, and Intelligence Support Plan; and the
    System Security Authorization Agreement.


                                        22
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) issued two reports relating to CCA certifications.

    IG DoD Audit Report No. D-2001-137, “Certification of the Defense Civilian
    Personnel Data System,” June 7, 2001

    IG DoD Audit Report No. D–2002-103, “Certification of the Reserve
    Component Automation System,” June 14, 2002




                                       23
Appendix B. Clinger-Cohen Act of 1996
   In the mid-1990s, Congress passed several items of reform legislation designed
   to improve the management and performance of Federal agencies. The reform
   legislation responded to the inability of Federal agencies to effectively manage
   the development and production of information technology systems that met the
   needs of functional users.

   One major reform initiative was the Information Technology Management
   Reform Act of 1996, which was subsequently retitled the Clinger-Cohen Act of
   1996.

   CCA requires Federal agencies to focus on the results achieved through
   information technology investments while streamlining the Federal information
   technology procurement process. Specifically, CCA introduced additional
   precision and structure into the way that agencies approach the selection,
   acquisition, and management of information technology. One of the primary
   requirements of CCA was the establishment of the position of the Chief
   Information Officer for each Federal agency.

   To comply with this requirement, in June 1997, the Secretary of Defense
   designated the Assistant Secretary of Defense (Command, Control,
   Communications, and Intelligence) as the DoD CIO and conferred the authority
   and responsibility for implementing several aspects of CCA to the Assistant
   Secretary. The DoD CIO responsibilities include the following:

          •   designing and implementing a process for maximizing the value and
              assessing and managing the risks of DoD information technology
              acquisitions,

          •   institutionalizing performance- and results-based information
              technology management, and

          •   providing advice and other assistance to the Secretary of Defense and
              other senior DoD managers to ensure that the acquisition of
              information technology and information resources was managed in
              accordance with the policies of CCA.

   The Secretary of Defense also made the DoD CIO responsible for the
   management and oversight of all DoD information technology systems. Specific
   responsibilities included overseeing the performance of information technology
   programs and measuring program progress through system milestone reviews.




                                      24
Appendix C. Defense Integrated Military Human
            Resources System Background
   Legacy Systems. Since the advent of data automation, the Military Services
   managed personnel resources with automated systems developed by the
   individual Services. Although there were process reasons why the systems
   would vary because of differences in the areas of mission, programs, or
   implementing legislation, many of the variations were simply the result of
   different Services developing systems at different points in time with little
   interface or knowledge of other Service systems. Thus, in the 1990s, DoD had a
   multitude of unique core personnel field level and headquarters systems.

   Desert Shield/Storm. Operations Desert Shield and Desert Storm in 1990 and
   1991 highlighted many inadequacies in DoD personnel systems. For example,
   commanders of joint forces lacked accurate information on the capabilities and
   location of available personnel, which hindered assessments of operational
   capabilities and optimal use of human resources. For OSD, the difficulty in
   integrating the Services unique data elements into meaningful information
   presented problems in monitoring deployments, responding to needs of family
   members, and implementing needed personnel policies. The Services continued
   to encounter problems in identifying activated Reservists and National
   Guardsmen, and obtaining connectivity between active duty, Reserve and
   National Guard personnel data systems. For Reserve and National Guard
   members, pay and benefits were often delayed or inaccurate, and personnel
   records did not always reflect credit for full service. Other Federal agencies,
   such as the Department of Veterans Affairs and Health and Human Services,
   relied on DoD to provide information for analyses and calculations of benefits.
   Accurate and timely data were not always available to support their needs. These
   major problem areas were documented in the DIMHRS mission need statement,
   dated February 24, 1998.

   Defense Science Board Task Force. In late 1995, the Under Secretary of
   Defense for Personnel and Readiness, the Under Secretary of Defense
   (Comptroller), and the Assistant Secretary of Defense (Command, Control,
   Communications, and Intelligence) asked the Under Secretary of Defense for
   Acquisition and Technology to establish a Defense Science Board Task Force on
   Military Personnel Information Management to advise the Secretary of Defense
   on the best strategy for automated support to military personnel and pay
   functions. After a full review of existing and planned Service-specific systems
   and a wide range of alternatives, the Task Force addressed those issues and
   published its report in August 1996. The Task Force documented specific
   alternatives and considered rationale used to develop recommendations and
   conclusions in August 1996. A key conclusion of the Task Force stated:
             The Task Force has unanimously concluded that the present situation,
             in which the Services develop and maintain multiple Service-unique
             military personnel and pay systems, has led to significant functional
             shortcomings (particularly in the joint arena) and excessive costs for

                                          25
           system development and maintenance for the Department of Defense.
           Moreover, it is clear to the members that there are no technical,
           functional, or programmatic barriers, which preclude the realization of
           a common system that can support all Services and all components.
           These conclusions were also supported by the Services.

The Deputy Secretary of Defense decided, with coordination from the Military
Departments, the Joint Staff, and several OSD offices, to implement the Task
Force recommendations. The Deputy Secretary of Defense decisions were
documented in several Program Budget Decisions, Program Decision
Memorandum, and a July 8, 1997, memorandum that established JR&IO. The
July 1997 memorandum also assigned implementation responsibilities to JR&IO,
under the auspices of the Under Secretary of Defense for Personnel and
Readiness, and the Commander, Naval Reserve Force, as the acquisition
executive agent.

Proposed System. To fulfill the needs and overcome the problems outlined in
the mission needs statement, an Acquisition Category IA major automated
information system was proposed. DIMHRS will serve as a standard, single
military personnel and pay management system. It would be based on an
extensive reengineering of business practices that captured the best of both
private and public sectors. DIMHRS would also provide support to the set of
core processes that were common to all Services. The core system should
collect, store, pass, process, and report personnel and pay data for all DoD
active duty, Reserve, National Guard, and retired personnel. Any processes
supported by targeted legacy systems would also be supported by DIMHRS. If
legacy processes are not included in the set of core processes, then those
processes would be included in DIMHRS as Service-specific functionality.
Although the Services retained congressionally mandated Title 10 (Armed
Forces) and Title 32 (National Guard) responsibilities, DIMHRS will provide
common core functionality, common information and data exchange, and
associated common core database capabilities supplemented by Service-specific
needs. Common software and databases serve as the foundation of DIMHRS in
that the databases will make DIMHRS operate in a single integrated approach,
over time. This core capability will support multi-component, Service, joint, and
combined task organized forces. Personnel asset visibility, as part of total asset
visibility, will remain the critical minimum essential capability.




                                        26
Appendix D. Exit Criteria for Milestone B
   The Milestone I acquisition decision memorandum required the DIMHRS
   program officials to provide the following approved documentation to the
   Overarching Integrated Product Team Leader prior to Milestone B approval.


                                    Milestone B Exit Criteria

    •   An updated AoA for DIMHRS Executive Steering Committee approval and Clinger-Cohen
        Act Certification. This update should focus on the full program and provide:

            - A complete cost benefit (to include mission benefits) analysis for the most viable
              DIMHRS alternatives, documenting the rationale for eliminating alternatives not
              fully analyzed in the earlier update.

            - A comprehensive return-on-investment calculation for the alternatives.

    •   A migration strategy for the transition of legacy systems

    •   An approved acquisition program baseline, acquisition strategy plan, and the command,
        control, communications, computers, and intelligence support plan

    •   An economic analysis for the preferred DIMHRS alternative (selected in the AoA and
        refined by subsequent decisions) relative to the status quo. This economic analysis should
        capture the total cost of ownership, to include Military Department unique infrastructure
        and operating costs. Document the risk and feasibility of technical design and architecture
        alternatives through engineering and design studies and prototyping.

    •   A component cost analysis for the preferred DIMHRS alternative.

    •   An updated test and evaluation master plan. The test and evaluation master plan must be
        reviewed and approved by the Overarching Integrated Product Team Leader and the
        Director, Operational Test and Evaluation. In addition to validating the technical
        performance aspects of the program, the test and evaluation master plan must provide a
        comprehensive test and evaluation strategy for validating the user operational performance
        requirements, including interoperability and security.

    •   A System Security Authorization Agreement and the results of the designated approving
        authority review. Upon approval of the System Security Authorization Agreement, provide
        a briefing to the Infrastructure and Information Assurance Directorate of the Assistant
        Secretary of Defense (Command, Control, Communications, and Intelligence) on overall
        security plan including milestones for incorporating DoD public key infrastructure
        mandates.

    •   Certification that the program complies with the Clinger-Cohen Act.




                                             27
Appendix E. Summary of Management
            Comments and Audit Response
   The Under Secretary of Defense for Personnel and Readiness (the Under
   Secretary) provided comments on the draft report that cited inaccuracies and
   identified items requiring correction for finding A. The cited inaccuracies
   primarily related to the discussions of DIMHRS justification, legacy personnel
   system improvements, and further exploration of viable alternatives. Further,
   the Director for Manpower and Personnel, Joint Chiefs of Staff, commented that
   his staff was not accurately quoted and that the draft report conclusion regarding
   the military need for increased personnel asset visibility was not correct. The
   following summarizes management comments on each of those topics and the
   associated audit response.

   Management Comments Regarding DIMHRS Justification. The Under
   Secretary stated that the draft report was mistaken in stating that the primary
   justification for DIMHRS was to satisfy the operational need of joint forces
   commanders for personnel asset visibility and to capture potential economies and
   efficiencies. Support to the commander is only one of several essential
   requirements. Other primary deficiencies, related to pay, reserve forces, and
   OSD and other agency needs, are set forth in high-level requirements documents,
   such as the Mission Need Statement and the Operational Requirements
   Document.

   Audit Response. We are fully aware that personnel asset visibility is not the
   only justification for DIMHRS and have revised this final report to describe
   personnel asset visibility as one of the major justifications for DIMHRS.

   Management Comments Regarding Legacy System Improvements. The
   Under Secretary disagreed that subsequent improvements to the Military
   Services’ legacy personnel systems have largely remedied the personnel asset
   visibility problems experienced during the Persian Gulf War, stating that there
   have been no improvements to Service legacy systems to address the problem.

   The Director of Manpower and Personnel, Joint Chiefs of Staff, indicated that
   we did not accurately present statements made by his staff in the draft report and
   that our conclusion about the operational need for increased personnel asset
   visibility was incorrect.

   Audit Response. There are several indicators that the legacy systems have
   sufficiently evolved to overcome the critical operational problems identified
   during the Gulf War. For example, the 1999 analysis of alternatives states:
              . . . Some in the Services believe that Service-unique programs could
              provide many of the benefits of DIMHRS more quickly and at less cost
              to them. Some Services have already solved within their Service
              several of the problems DIMHRS is intended to solve (or they believe
              they will have done so when ongoing programs are completed).


                                          28
Further, as discussed in finding A, the Navy and Air Force have made major
modifications to their legacy systems since the Gulf War. If sufficient visibility
over personnel assets was not provided to the Combatant Commanders by the
legacy systems, it stands to reason that funding would have been identified to
field the Joint Personnel Asset Visibility capability.

As to the Director of Manpower and Personnel comments, we agree that the
statement regarding the receipt of few recent complaints from the Unified
Commands about personnel asset visibility was not presented in the proper
context and may have been misleading. In preparing the final report, we omitted
references to any discussions with Joint Staff Personnel.

Management Comments Regarding Further Exploration of Alternatives.
The Under Secretary stated that it was his responsibility to thoroughly evaluate
alternative solutions and to determine which ones are viable. In meeting that
responsibility, the alternative of a common database fed by the legacy systems
was not considered to be viable. The AoA in support of Milestone B is currently
being updated to better support that determination. The findings of the Defense
Science Board Task Force 1996 report, the independent analysis of alternatives
by the Institute for Defense Analysis in 1999, and the DoD AoA in 2001 all
reached the same basic conclusion: replacing or extensively modifying each
Service system would take longer, cost more, and be less likely to produce
uniform results than a single, standard system.

Management stated that a common database approach would solve none of the
deficiencies cited in system requirements documents. Further, DoD already has
a central database that is fed by the legacy systems. However, management
indicated that the information in that database was only as good as the
information fed to it. The legacy systems data are not commonly defined,
accurate, or timely. Without a common meaning, the use of collected data for
tactical, business, and personnel planning are limited. Accordingly, use of the
legacy systems to populate a common database would require the redesign of
each system to reflect a common meaning of data.

Audit Response. We agree with the Under Secretary as to his responsibilities.
We also agree with the stated findings of the three studies of DIMHRS
alternatives. The 1996 Defense Science Board Task Force study recommended
that DoD move to a single, COTS-based military personnel management system,
with initial fielding in 2001 or earlier. The Task Force also recommended that
planned Navy and Air Force personnel system modernization efforts be refocused
on the objective system. However, as discussed in the report, the Navy and Air
Force continued in their individual modernization efforts and spent hundreds of
millions of dollars toward those ends.

The Defense Science Board Task Force did not develop an economic analysis to
support their conclusions. As discussed in the report on pages 17 and 18, neither
the 1999 nor the 2001 AoA studies provided cost/benefit analyses of any system
approach other than a “build” or “buy” COTS-based, single-system solution
because any other approach was considered to be too expensive or would not
meet all requirements. Our primary concern is that no cost and requirements

                                     29
tradeoff studies were performed for possible approaches that did not meet all
requirements. One approach that admittedly may not meet all requirements, but
may cost considerably less, involves establishing a common database that is fed
by the legacy systems.

We also agree with the Under Secretary on the importance of common data.
However, it does not necessarily follow that a new, single DoD system has to be
developed and implemented in order to achieve data standardization. If a
common database were established with standard data definitions, data used by
the legacy systems could be translated to the standardized definition before being
fed to the common database. That approach may not meet all present DIMHRS
requirements, but it does offer potentially substantial economic and user-
acceptance advantages. While we are not endorsing that approach, or any other,
it deserves further consideration rather than being dismissed because it does not
accommodate all system requirements or objectives.




                                    30
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness
  Deputy Under Secretary of Defense for Program Integration
       Director, Joint Requirements and Integration Office
  Deputy Assistant Secretary of Defense (Military Personnel Policy)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
       Director, Investments and Acquisition

Joint Staff
Director, Joint Staff
  Director, Manpower and Personnel
  Director, Command, Control, Communications, and Computer Systems
  Director, Force Structure, Resources and Assessment

Department of the Army
Deputy Chief of Staff for Personnel
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Deputy Assistant Secretary of the Navy (Command, Control, Communications,
    Computers, and Information/Electronic Warfare/Space)
  Program Executive Officer for Information Technology
    Program Manager, Defense Integrated Military Human Resources System
Naval Inspector General
Deputy Chief of Naval Operations (Manpower and Personnel)
Deputy Commandant for Manpower and Reserve Affairs
Auditor General, Department of the Navy
Commander, Space and Naval Warfare Systems Command




                                          31
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff (Personnel)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Services
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
  National Security Division
  Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         32
Under Secretary of Defense for Readiness and
Personnel Comments




                      33
34
35
36
37
Final Report
 Reference




Revised,
page 2




Revised,
page 3

Revised,
Page 4




               38
     Final Report
      Reference




     Deleted




     Deleted




39
Final Report
 Reference




Revised,
page 16




Revised,
page 17




Page 18




Page 18




Quotation
deleted



Revised,
page 19




               40
41
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence
Comments




                      42
     Final Report
      Reference




     Page 19




43
44
45
Department of the Navy Comments




                    46
Department of the Air Force Comments




                     47
               Joint Staff Comments
Final Report
 Reference




Deleted




Deleted




                                      48
49
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense, prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
Wanda A. Scott
James W. Hutchinson
James B. Mitchell
Christine L. Haynes
Genea S. Pack
Darryl D. Eubanks
Ann A. Ferrante
